No. 21-

 

In THE
Supreme Court of the United States

TYRONE CHRISTOPHER THOMPSON,

Petitioner,
v.
STATE OF ALABAMA,
Respondent.

On Petition for a Writ of Certiorari to the
Alabama Court of Criminal Appeals

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,635 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 12, 2021.

 

Colin Casey Hogén
Wilson-Epes Printing Co., Inc.
